CERTIFICATE OF WORD COUNT
NO. 20-303
United States,
Petitioner(s),
v.
Jose Luis Vaello-Madero,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the PLAINTIFF RUIZ-AVILES
SSA ET AL. AMICUS AT MERITS STAGE IN SUPPORT OF RESPONDENTS contains 7217 words,
including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
V.

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
August 21, 2021

SCP Tracking: Abislaiman-252 Calle Cruz Ste 201-Cover Dark Green

